 SBA READINESS FOR REVIEWING

RECIPIENT REPORTS ON THE USE OF

      RECOVERY ACT FUNDS

            Report Number: ROM 10-01
            Date Issued: October 30, 2009




                  Prepared by the

            Office of Inspector General

        U. S. Small Business Administration

           U.S. Small Business Administration
           Office Inspector General
                                                                  Memorandum
    To:    Darryl K. Hairston                                                               Date:    October 30, 2009
           Associate Administrator for Management and
           Administration

           Eric R. Zarnikow
           Associate Administrator for Capital Access

  From:    Debra S. Ritt /s/

           Assistant Inspector General for Auditing


Subject:   Final Report on SBA Readiness for Reviewing Recipient Reports on the Use of
           Recovery Act Funds, ROM 10-01

           This report represents the results of our review of the Agency’s plans for ensuring
           that recipients of American Recovery and Reinvestment Act (Recovery Act) funds
           submit accurate, complete and timely data on the use of these funds, as required by
           Section 1512 of the Recovery Act. Office of Management and Budget (OMB)
           guidance 1 states that starting October 22, 2009, Federal agencies are to perform
           limited data quality reviews of recipient information and notify the recipients of
           two key data problems – material omissions and significant reporting errors.

           Section 1512 reporting requirements apply only to SBA’s contract awards, the
           Microloan Program, and the 7(a) Broker/Dealer Direct Loan Program. As of
           September 30, 2009, SBA had issued 15 Recovery Act-related contracts totaling
           $5.8 million, and obligated $15 million in Recovery Act funds for the Microloan
           Program. SBA expects that intermediaries 2 may start disbursing the obligated
           funds to loan and grant recipients starting in November 2009. The Agency has not

           1
              OMB Memorandum 09-21, Implementing Guidance for the Reports on Use of Funds Pursuant to the American
               Recovery and Reinvestment Act of 2009, June 22, 2009; and OMB’s Interim Guidance on Reviewing Contractor
               Reports on the Use of Recovery Act Funds in Accordance with Federal Acquisition Regulations Clause 52.204-11,
               September 30, 2009.
           2	
              Intermediaries are qualified nonprofit community-based lenders who, in turn, provide Microloans of up to $35,000 to
              local entrepreneurs and small business owners, in conjunction with technical assistance training.
                                                                                  2

yet implemented the 7(a) Broker Dealer Direct Loan Program; but is currently
working with OMB to develop the regulations for administering this program.

The objective of our review was to determine whether SBA’s Office of
Management and Administration (M&A) and Office of Capital Access (OCA) had
established processes for performing data quality reviews for contract and
Microloan recipient data, and for notifying recipients of the need to make
appropriate and timely changes. We did not review SBA’s plans for reviewing
recipient data associated with the 7(a) Broker/Dealer Direct Loan Program as it is
uncertain when the program will be implemented.

Using the Data Quality Review Guide provided by the Recovery Accountability
and Transparency Board, we reviewed Federal laws and regulations; and obtained
an overview of actions taken to date from officials in M&A, OCA, and the Office
of the Chief Financial Officer (OCFO). We reviewed the Agency’s plans for
conducting limited reviews to ensure recipient reports are accurate, complete and
timely pursuant to the OMB guidance and discussed these documents with the
appropriate program officials. We also reviewed an Agency notice that notified
Microloan recipients of the 1512 reporting requirements. However, our review
did not include an assessment of the quality of guidance provided in the notice, as
an ongoing audit of the Microloan program will address that issue. We conducted
our review between September 2009 and October 2009, in accordance with
Government Auditing Standards prescribed by the Comptroller General of the
United States.

We found that M&A and OCA officials have taken steps to ensure that Recovery
Act recipients comply with Section 1512 reporting requirements. These steps
included: incorporating provisions for recipient reporting requirements in
contracts and orders; issuing an information notice that included a section on what
Recovery Act contracting officers and grant agreement officers need to know
about FederalReporting.gov; and disseminating a procedural notice outlining
specific reporting requirements for Microloan fund recipients. The M&A
information notice, however, did not adequately define the review process it
would use to identify material omissions and/or significant reporting errors in
recipient data. Further, while OCA had disseminated guidance on the reporting
requirements, it had not yet drafted a policy for reviewing Microloan recipient
data. We recommended that SBA issue a procedural notice defining its data
quality review process for contract recipient reports and define its process for
evaluating the quality of data reported by Microloan intermediaries. Both M&A
and OCA concurred with the recommendations; however OCA needs to provide
the OIG with a target data for implementing recommendation 2.
                                                                                      3

BACKGROUND
Section 1512 of the Recovery Act requires recipients of Recovery Act funds to
submit a report to the awarding agencies no later than 10 days after the end of each
calendar quarter. The quarterly reports are to include: (1) the amount spent on
projects or activities; (2) a list of projects or activities funded by name, including a
description and completion status; (3) estimates of the number of jobs created and
retained by those projects or activities; and (4) details on sub-awards and other
payments.

On June 22, 2009, OMB issued Memorandum 09-21, “Implementing Guidance for
the Reports on Use of Funds Pursuant to the American Recovery and
Reinvestment Act of 2009. OMB’s Office of Federal Procurement Policy (OFPP)
subsequently issued guidance for contract recipients entitled, Interim Guidance on
Reviewing Contractor Reports on the Use of Recovery Act Funds in Accordance
With FAR Clause 52.204-11, dated September 30, 2009. The OMB guidance
requires that prime recipients submit their data to www.FederalReporting.gov, the
online portal for collecting all Recovery Act recipient reports. The first report was
due by October 10, 2009, with subsequent reports due within 22 to 29 days after
the end of each calendar quarter. Federal agencies are required to perform a
limited data quality review of the submitted information and notify recipients of
the two key data problems – material omissions and significant reporting errors.
The detailed recipient reports are to be made available to the public on the
Recovery.gov website no later than 30 days following the end of the quarter (e.g.,
October 30, 2009).

RESULTS

M&A’s Information Notice Lacks Requir ed Details on the Data Quality
Review Pr ocess

M&A included Federal Acquisition Regulation (FAR) clause 52.204-11 in all
contracts awarded with Recovery Act funds, informing contractors of the 1512
reporting requirements. It also issued an Information Notice, Ensuring Accurate
Procurement Data Reporting to the Federal Procurement Data System-Next
Generation (FPDS-NG) and Federal Assistance Award Database (FAADS Plus),
that informed SBA’s procurement and grants workforce about new guidance from
OMB regarding the certification of FPDS-NG and FAADSPlus. This notice
includes a section entitled what do Recovery Act contracting officers and grant
agreement officers need to know about FederalReporting.gov.

The section regarding FederalReporting.gov was intended to convey temporary
policy matters that are short in duration because they relate to the Recovery Act,
and is not contained in an existing Standard Operating Procedure. However, we
                                                                                        4

believe that M&A should reissue this section in a Procedural Notice. Further, our
review of the Information Notice showed that it lacked sufficient detail to comply
with implementing guidance issued by OMB. Specifically, the notice does not
define:

   •	    the oversight process that will be deployed to ensure that all prime

         recipients have filed quarterly reports and that required reviews are 

         conducted of the reported data; 

   •	    the steps that will be used to validate recipient reports for compliance,
         accuracy, and consistency with the award data, and required data elements
         as prescribed by the “Recipient Reporting Data Model” (OFPP Memo and
         FAR clause 52.204-11);
   •	    the measures that M&A has in place or will deploy to remediate systemic
         or chronic reporting problems, such as late reporting or a lack of reporting
         by contractors; and
   •	    material omissions and significant errors to ensure consistency in which
         data quality reviews are assessed throughout the Agency.

These deficiencies occurred because M&A management did not effectively
communicate the need to expeditiously develop and deploy a definitive policy for
reviewing reports submitted by Federal contractors. By not timely developing and
deploying an effective policy for reviewing recipient reports for contracts awarded
under the Recovery Act, M&A may not effectively ensure that: (1) accurate and
complete information is provided to the public; (2) material omissions and/or
significant reporting errors are identified; and (3) recipients are notified of the
need to make timely, appropriate, and corrective changes in accordance with the
Recovery Act.

OCA Has Notified Micr oloan Recipients of Repor ting Requir ements, but Had
Not Yet Defined its Pr ocess for Reviewing Recipient Data

To date, OCA has taken several steps to communicate the 1512 reporting
requirements to Microloan intermediaries, including:

        •	 issuing Procedural Notice 5000-1119, Recovery Act – Microloan Recipient
          Reporting, which was effective 7/31/09;

        •	 disseminating the notice to intermediaries; and

        •	 posting the notice on the SBA Recovery Act portal.
                                                                                     5

The procedural notice provides the deadlines for reporting, and details all of the
data elements to be reported, as required by the OMB guidance.

However, OCA had not yet drafted a policy describing its process for identifying
material omissions and/or significant reporting errors in recipient data, although
$15 million of Recovery funds had been obligated to Microloan intermediaries as
of September 30, 2009. OCA staff is collaborating with the OCFO to develop a
process for performing the data quality reviews and anticipates having it
completed prior to the disbursement of Microloan funds to loan and grant
recipients.

RECOMMENDATIONS

We recommend that the Associate Administrator for M&A:

   1. Issue a Procedural Notice for performing data quality reviews over contract
      recipient reports, which incorporates specific, detailed instructions
      for using FederalReporting.gov, and other relevant instructions provided
      in the OFPP Memorandum.

We also recommend that the Associate Administrator for OCA:

   2. Define its process for reviewing Microloan intermediary reports that
      incorporates specific, detailed instructions for using FederalReporting.gov,
      and other relevant instructions provided in the OMB M-09-21.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On October 22, 2009, we provided a draft of this report to SBA for comment, and
on October 28, we received responses from the Associate Administrators for
M&A and OCA. Management agreed with the results of our review.

Recommendation 1

Management Comments

M&A verbally agreed with recommendation 1 and will develop and implement a
procedural notice for performing data quality reviews over recipient reporting in
accordance with the instructions provided in the OFPP Memorandum by
December 1, 2009.
                                                                                  6

OIG Response

M&A’s comments are responsive to the recommendation.

Recommendation 2

Management Comments

The Associate Administrator for OCA provided written comments that are
included in their entirety in Appendix I. OCA agreed with recommendation 2,
stating that it is in the process of developing an internal procedure for reviewing
Microloan recipient reporting data, which focuses on avoiding material omissions
and significant reporting errors, as outlined in OMB M-09-21. OCA has also
drafted a recipient reporting procedural notice for the 7(a) Broker Dealer Direct
Loan program that is currently in the Agency’s clearance process. In addition, an
internal review procedure will be developed for the 7(a) Broker Dealer Loan
program, following clearance of the reporting guidelines.

OIG Response

While OCA’s proposed actions adequately address recommendation, we do not
consider them to be fully responsive because the target dates for implementing the
procedural notices were not provided.

ACTION REQUIRED

We request that by November 21, 2009, OCA provide the OIG a proposed
timeline for implementing recommendation 2.

We appreciate the courtesies and cooperation of the M&A and OCA staff during
this review. If you have any questions concerning this report, please call me
at (202) 205-7390 or Jeffrey Brindle, Director, Information Technology and
Financial Management Group, at (202) 205-7490.
